  ASSETS FORFEITURE FUND

            AND

 SEIZED ASSET DEPOSIT FUND

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2010

       U.S. Department of Justice
	
     Office of the Inspector General
	
              Audit Division
	

          Audit Report 11-12

            January 2011

                   ASSETS FORFEITURE FUND

                             AND 

                  SEIZED ASSET DEPOSIT FUND

                 ANNUAL FINANCIAL STATEMENTS

                       FISCAL YEAR 2010


                  OFFICE OF THE INSPECTOR GENERAL

                     COMMENTARY AND SUMMARY


       The Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF)
is a reporting entity within the U.S. Department of Justice (DOJ). The
AFF/SADF were created to serve as repositories for funds seized by
participating agencies and the sale proceeds from forfeited property. The
proceeds deposited in the AFF are used to cover certain operating costs of
the DOJ Asset Forfeiture Program. These include equitable sharing
payments to state, local, and foreign governments; joint law enforcement
operations; contract services in support of the program; and satisfaction of
innocent third party claims. Operational expenses do not include the
salaries and administrative expenses of Asset Forfeiture Program
participants incurred while conducting investigations leading to seizure and
forfeiture, and these expenses are not reported in the AFF/SADF financial
statements.

      This audit report contains the Annual Financial Statements of the
AFF/SADF for the fiscal years (FY) ended September 30, 2010, and
September 30, 2009. Under the direction of the Office of the Inspector
General (OIG), KPMG LLP performed the AFF/SADF’s audit in accordance
with U.S. generally accepted government auditing standards. The audit
resulted in an unqualified opinion on the FY 2010 financial statements. An
unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and results of the entity’s
operations in conformity with U.S. generally accepted accounting principles.
For FY 2009, the AFF/SADF also received an unqualified opinion on its
financial statements (OIG Report No. 10-10).

      KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2010, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified one significant deficiency
related to improvements needed in the seized and forfeited property
management environment, which has been reported annually since
FY 2006. In the FY 2010 Independent Auditors’ Report on Compliance and
Other Matters, the auditors identified no instances of non-compliance with




                                     -i-
applicable laws and regulations and the Federal Financial Management
Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the AFF/SADF’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the AFF/SADF’s financial management systems substantially
complied with the Federal Financial Management Improvement Act of 1996,
or conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 5, 2010, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with
U.S. generally accepted government auditing standards.




                                   - ii -
                    ASSETS FORFEITURE FUND

                              AND

                   SEIZED ASSET DEPOSIT FUND

                  ANNUAL FINANCIAL STATEMENTS

                        FISCAL YEAR 2010


                           TABLE OF CONTENTS



                                                                               PAGE
	

MANAGEMENT’S DISCUSSION AND ANALYSIS..........................................3
	

INDEPENDENT AUDITORS’ REPORTS
	

   REPORT ON FINANCIAL STATEMENTS ............................................... 17
	

   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 19
	

   REPORT ON COMPLIANCE AND OTHER MATTERS................................ 27
	

PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES
	

   CONSOLIDATED BALANCE SHEETS ................................................... 31
	

   CONSOLIDATED STATEMENTS OF NET COST ..................................... 32
	

   CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 33
	

   COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 34
	

   NOTES TO THE FINANCIAL STATEMENTS........................................... 35
	

APPENDIX
	

   OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
	
   OF ACTIONS NECESSARY TO CLOSE THE REPORT .............................. 69
	
This page intentionally left blank. 

Management’s Discussion and Analysis 

              Unaudited 





               -1-
This page intentionally left blank. 





            -2-
                                  U.S. Department of Justice

                    Assets Forfeiture Fund and Seized Asset Deposit Fund

                           Management’s Discussion and Analysis

                                                      (Unaudited)

MISSION

The primary mission of the Department of Justice (DOJ or the Department) Asset Forfeiture Program
(AFP or the Program) is to prevent and reduce crime by disrupting, damaging, and dismantling
criminal organizations through the use of the forfeiture sanction. This is accomplished by means of
depriving drug traffickers, racketeers, and other criminal syndicates of their ill-gotten proceeds and
instrumentalities of their trade. Components responsible for the administration and financial
management of the AFP are charged with lawfully, effectively, and efficiently supporting law
enforcement authorities in the application of specified forfeiture statutes. The Assets Forfeiture Fund
(AFF or the Fund) and Seized Asset Deposit Fund (SADF) together comprise a single financial
reporting entity of the DOJ, which includes the specified funds, property seized for forfeiture, and the
transactions and program activities of DOJ forfeiture program components and other participating
agencies as described more fully herein.

ORGANIZATION STRUCTURE

Table 1 below displays the primary functional activities of the participating agencies in the AFP. For
the full names of the participating agencies, see Footnote 1. These agencies investigate or prosecute
criminal activity under statutes, such as the Comprehensive Drug Abuse Prevention and Control Act of
1970, the Racketeer Influenced and Corrupt Organizations statute, the Controlled Substances Act, and
the Money Laundering Control Act, or provide administrative support services to the Program.
                                                                                                   1
                              Table 1. Asset Forfeiture Program Participants by Function

      Function      AFMLS    AFMS      ATF     DCIS      DEA       DS     EOUSA        FBI    FDA      USDA      USMS      USPS
    Investigation                       X       X         X        X                    X      X         X                  X
      Litigation      X                                                       X
     Custody of
       Assets                            X                X                             X                          X
    Management        X        X


FINANCIAL STRUCTURE
The AFP is comprised of two funds, which are under the management control of the Asset Forfeiture
Management Staff (AFMS). The AFF is a special fund listed in the U.S. Treasury Federal Account
Symbols and Titles Book as 15X5042. The SADF is a deposit fund listed as 15X6874.

The AFF was created by the Comprehensive Crime Control Act of 1984 to be the repository of the
proceeds of forfeitures under any law enforced and administered by the DOJ (28 U.S.C. § 524(c)). All


1
 The participants include the Asset Forfeiture and Money Laundering Section, Criminal Division (AFMLS); Asset Forfeiture
Management Staff, Justice Management Division (AFMS); Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); Defense
Criminal Investigative Service (DCIS); Drug Enforcement Administration (DEA); Bureau of Diplomatic Security, Department of State
(DS); Executive Office for United States Attorneys (EOUSA); Federal Bureau of Investigation (FBI); Food and Drug Administration
(FDA), United States Department of Agriculture (USDA); United States Marshals Service (USMS); and United States Postal Service
(USPS).

                                                            -3-
amounts earned from the investment of AFF and SADF balances are deposited into the AFF. The
interest earned on the AFF balances is the property of the United States Government.

Monies deposited in the AFF are used to cover operating costs of the Program. These include, for
example, asset management and disposition expenses; equitable sharing payments to participating
state, local, and foreign governments; Automatic Data Processing (ADP) equipment expenses; contract
service payments; and payments of innocent third party claims. All salaries and employment related
expenses, liabilities, and imputed financing costs of DOJ AFP participants are reported in the financial
statements of the participants’ reporting entities. Salaries and employment related costs of
administrative personnel of the AFMS and USMS are charged to the AFP as program operating costs.
The AFP’s operating costs do not include the costs of any participant salaries incurred while
conducting investigations leading to seizure and forfeiture.

While the AFF is the repository for forfeited currency and proceeds arising from the sale of forfeited
property and also serves as the operating fund for specified program expenditures, the SADF serves as
a repository for seized currency and specified deposits.

The SADF was created administratively by the DOJ to ensure control over monies seized by agencies
participating in the DOJ’s AFP. Public Law (P.L.) 102-140, dated October 28, 1991, provided
authority for the investment of SADF balances pending adjudication. Generally, monies in the SADF
are not the property of the Government. The SADF holds seized cash, the proceeds of any
pre-forfeiture sale of seized property, and forfeited cash not yet transferred to the AFF. Operating
businesses under seizure also may be managed through the SADF. Because most funds held in the
SADF are not Government property, monies in the SADF cannot be expended. SADF balances are
transferred to the AFF upon the successful conclusion of a forfeiture action.

The Fund receives most of its revenue from the forfeiture of cash and other monetary assets and,
secondly, from the sale of forfeited property. AFP participants may receive annual allocations by
suballotment advice or reimbursement agreement. The Fund’s first priority is to cover the business or
operational expenses of the AFP. After it is determined that there will be sufficient receipts,
allocations may be made for investigative expenses, such as awards for information, purchase of
evidence, and equipping of conveyances, and also discretionary expenses, such as storage, protection
and destruction of controlled substances.

Limitations on the Use of the Assets Forfeiture Fund

The AFF is defined by statute. Authorities and limitations governing use of the AFF are specified in
28 U.S.C. § 524(c). In addition, use of the AFF is controlled by laws and regulations governing the use
of public monies and appropriations (e.g., 31 U.S.C. § 1341-1353 and 1501-1558, Office of
Management and Budget (OMB) Circulars, and provisions of annual appropriation acts). The AFF is
further controlled by the Attorney General's Guidelines on Seized and Forfeited Property (July 1990),
policy memoranda, and statutory interpretations issued by appropriate authorities. Unless otherwise
provided by law, restrictions on the use of AFF monies retain those limitations after any monies are
made available to a recipient agency. Moreover, monies are available for use only to the extent that
receipts are available in the AFF.




                                                -4-
In Fiscal Year (FY) 2010 and 2009, monies were available under a permanent indefinite appropriation
to finance the following:

       (1) 	   The operational costs of the forfeiture program, including handling and disposal of
               seized and forfeited assets, and the execution of legal forfeiture proceedings to perfect
               the title of the United States in that property.

       (2) 	   The payment of innocent third party claims.

       (3) 	   The payment of equitable shares to participating foreign governments and state and
               local law enforcement agencies.

       (4) 	   The costs of ADP equipment and ADP support for the Program.

       (5) 	   Contract services in support of the Program.

       (6)	    Training and printing associated with the Program.

       (7)	    Other management expenses of the Program.

       (8)	    Awards for information leading to forfeiture.

       (9)	    Joint Federal, state, and local law enforcement operations.

       (10)	   Investigative expenses leading to seizure.

Resources of the AFF are intended to cover the business expenses of the AFP, with any excess
balances available for discretionary purposes, including investigative expenses subject to
appropriations limitation (definite authority). Excess unobligated balances identified at the end of a
fiscal year may be declared a "Super Surplus" balance. Super Surplus balances may be allocated at the
discretion of the Attorney General for ". . . any Federal law enforcement, litigative/prosecutive, and
correctional activities, or any other authorized purpose of the DOJ" pursuant to 28 U.S.C. § 524(c)(8)(E).


Holding and Accounting for Seized and Forfeited Property
The USMS has primary responsibility for holding and maintaining real and tangible personal property
seized by participating agencies for disposition. Seized property can be either returned to the owner or
forfeited to the Government. Forfeited property is subsequently sold, placed into official use,
destroyed, or transferred to another agency. Seized and forfeited property is not considered inventory
held for resale in the normal course of business.




                                                 -5-
ANALYSIS OF FINANCIAL STATEMENTS
The following are brief explanations for the AFF/SADF financial results, position, and condition
conveyed in the principal financial statements. In FY 2010, nine major fraud cases resulted in
extraordinary forfeiture income of $630.3 million compared to the three FY 2009 fraud cases that
resulted in extraordinary forfeiture income of $451.5 million. The term extraordinary is considered
nonrecurring forfeiture income greater than $25 million. The AFF/SADF financial results reflect the
impact of the large cases on forfeiture income and accrued liabilities in the fund balance with Treasury,
accounts payable, forfeiture revenue, and budgetary resources.

Consolidated Balance Sheets

Total assets, which present as of a specific time the amounts of future economic benefits owned or
managed by the AFF/SADF, increased in FY 2010 to $3,999.8 million from $3,799.5 million in
FY 2009, an increase of 5.3 percent. If seized assets, which are not yet owned by the government, are
backed out, the adjusted assets of the Fund increased to $2,575.0 million in FY 2010 from $2,348.3
million in FY 2009, an increase of 9.7 percent. This is attributable to an increase in forfeited assets in
FY 2010 from FY 2009, indicating a strong current and future potential stream of assets flowing into
the AFF.

Total liabilities of the funds decreased to $2,312.4 million in FY 2010 from $2,373.7 million in
FY 2009, a decrease of 2.6 percent. The majority of the change, $37.7 million, in liabilities is due to
the decrease in deferred revenue. This represents money that has been received, but not recognized as
earned. Current assets were more than current liabilities by a ratio of 2.90 to 1, which reflects an
increase of 0.36 from FY 2009. This ratio continues to indicate that the AFF will be able to meet its
obligations when due. In the calculation of the ratio of current assets to current liabilities, current
assets consist of total assets less SADF net investments, seized cash deposited, seized monetary
instruments (see Note 4), and property, plant and equipment while current liabilities include the total
of liabilities covered by budgetary resources, except for total seized cash and monetary instruments.

For the fiscal year ended September 30, 2010, net position, which is the equity of the U.S. Government
in the AFF, increased 18.3 percent compared to FY 2009. The ratio of net position to total assets was
0.42 to 1 in FY 2010, an increase of 0.04 from FY 2009.

Consolidated Statements of Net Cost

Net cost of operations is related to DOJ’s strategic goal 2: Prevent crime, enforce Federal laws and
Represent the Rights and Interests of the American People. Net cost of operations increased to
$1,284.4 million in FY 2010 from $994.8 million in FY 2009, an increase of 29.1 percent. In FY 2009
and 2010, the largest expense consisted of equitable sharing payments. To the extent that financing
sources do not cover net costs, AFF’s carry forward balances are used to support program expenses.
The carry forward balances consist primarily of special case funds and monies for operational
requirements.
Consolidated Statements of Changes in Net Position

Net position, an indicator of the Fund’s future capability to support ongoing operations, increased to
$1,687.4 million in FY 2010 from $1,425.9 million in FY 2009, an increase of 18.3 percent. The
Fund’s financing sources consist primarily of forfeited cash and other monetary assets and, secondly,
sale proceeds of forfeited property. Additional factors that consume resources and influence the AFF
net position to a lesser extent include the short-term interest rates that affect revenue from investments
in Government securities; the nature of seized non-cash properties that must be converted into cash
and the transfers of properties placed into official use.

The Program invests cash balances from both the AFF and SADF in Government securities. Earnings
over a five-year period are presented in Figure 2. Investment interest earnings (i.e., nonexchange
revenue) realized for the fiscal year ended September 30, 2010, totaled $3.9 million, which is $6.8
million less than the $10.7 million in investment interest earnings for the fiscal year ended
September 30, 2009. FY 2010 investment interest earned is $136 thousand less than the $4.0 million
estimated for FY 2010 in the Budget of the United States Government, Fiscal Year 2011--Appendix.
The decreased earnings are due primarily to the decrease in interest rates for one-month, three-month,
and six-month Treasury bills. Amounts available for investment are difficult to predict because many
factors influence the balance. For example, one significant factor is the level of third party payments
and equitable sharing distributions. Uncertainties in the dollar amount and timing of these
disbursements are difficult to predict. Additional factors include the time to process equitable sharing
requests and appeals of forfeiture judgments.

Combined Statements of Budgetary Resources

Total budgetary resources increased to $2,440.9 million in FY 2010 from $2,353.5 million in FY 2009,
a 3.7 percent increase. The net increase is attributed to a significant increase in the unobligated
balance brought forward and forfeiture income received. The majority of the unobligated balances
brought forward are retained for equitable sharing costs. Nonrecurring forfeiture income increased to
$630.3 million in FY 2010 from $451.5 million in FY 2009. From FY 2010 activity, approximately
$254.2 million of forfeiture income will be disbursed to the victims of the fraud cases. As a result of
the cases, the net outlays increased to $1,286.1 million in FY 2010 from $1,050.4 million in FY 2009,
an increase of 22.4 percent.

The total obligations incurred in FY 2010 were $1,430.7 million, an increase of $272.6 million
compared to $1,158.1 million incurred in FY 2009. The FY 2010 obligations increased relative to
FY 2009 due to nonrecurring case activity in FY 2010.

The AFF’s unobligated balance was $1,010.2 million as of September 30, 2010, a decrease of 15.5
percent as compared to $1,195.4 million as of September 30, 2009. The unobligated balance carried
forward is retained in the AFF to ensure the availability of sufficient monies in the upcoming fiscal
year for authorized purposes. These purposes include program operating expenses as well as pending
extraordinary distributions, pending innocent third party payments, uncommitted Super Surplus
authority, and other items. For example, as of September 30, 2010, pending extraordinary equitable
sharing distributions totaled an estimated $333.0 million, which is comprised of 179 assets with values
greater than $1 million.




                                                 -7-
                               Table 2. Source of Assets Forfeiture Fund Resources
                                                (Dollars in Thousands)


                                                                                                    Change
                            Source                                FY 2010             FY 2009         %

 Exchange Revenue                                                      $7,324             $6,723       8.9%
 Budgetary Financing Sources
   Nonexchange Revenues                                                 3,864             10,684      -63.8%
   Donations and Forfeitures of Cash or Cash Equivalents            1,502,466          1,376,423        9.2%

 Other Financing Sources
   Donations and Forfeitures of Property                                70,864            68,145       4.0%
   Transfers-In/Out Without Reimbursement                             (31,259)          (42,389)      26.3%
 Total                                                             $1,553,259         $1,419,586       9.4%


                               Table 3. How Assets Forfeiture Fund Resources are Spent
                                               (Dollars in Thousands)



                      Strategic Goal (SG)                         FY 2010            FY 2009       Change %

 SG 2: Prevent Crime, Enforce Federal Laws, and Represent the
 Rights and Interests of the American People
                                              Total Gross Cost    $1,291,742         $1,001,512
                                   Less: Total Earned Revenue         (7,324)            (6,723)
                                  Total Net Cost of Operations    $1,284,418           $994,789       29.1%


2010 Financial Highlights

As indicated in Table 3, in FY 2010 the AFF supported Strategic Goal 2 of the Attorney General’s
Strategic Plan for Fiscal Years 2007 – 2012, which includes strategic objective 2.2 - Reduce the threat,
incidence, and prevalence of violent crime.

The AFF has no costs associated with counterterrorism or homeland security.

Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests
of the American People. Included are expenditures made for case, program, investigative, and other
authorized support costs incurred by AFP participants to operate the activities of the Program. The
Fund’s resources cover the costs of seizing, evaluating, inventorying, maintaining, protecting,
advertising, forfeiting, and disposing of property seized for forfeiture. These costs are necessary to
support the AFP and fluctuate in direct relation to the forfeiture activity levels of the investigative,
prosecutive, litigative, and administrative participants of the Fund. For the fiscal year ended
September 30, 2010, $1,284.4 million was expended (net of earned revenue) while $994.8 million was
expended (net of earned revenue) for the fiscal year ended September 30, 2009. Goal 2 net costs are
presented in Figure 1; Financing sources are presented in Figure 2.




                                                           -8-
                            Figure 1. AFF Net Costs
                              (Dollars in Millions)

          $1,800

          $1,600          $1,530

          $1,400
                                                             $1,284
          $1,200
                                         $1,031
                   $974                               $995
          $1,000
Dollars




           $800

           $600

           $400

           $200

             $0
                   2006    2007            2008       2009    2010
           TOTAL   $974   $1,530          $1,031      $995   $1,284
                                        Fiscal Year

                                           TOTAL




                                            -9-
PERFORMANCE INFORMATION
Data Reliability and Validity

The AFP views data reliability and validity as critically important in the planning and assessment of its
performance. The Justice Management Division (JMD) maintains standards and practices to ensure
that data reported meets the OMB standards for data reliability that are presented in OMB Circular No.
A-11, Preparing and Submitting the Annual Performance Report, Section 230.5.

The financial management of the Fund is supported by two JMD financial systems: Financial
Management Information System 2 (FMIS2) and Unified Financial Management System (UFMS).
FMIS2 is a computerized, general-purpose accounting and reporting system that supports the financial
operations of the DOJ. UFMS is a financial system to standardize business processes across all DOJ
components, except for Federal Prison Industries, providing secure, accurate, and timely financial data.
The AFMS was the Department’s pilot implementation in FY 2008. The implementation was limited
to only certain specific transactions such as reimbursable agreements with non-DOJ participants of the
AFP. The implementation of UFMS in the Department is scheduled for completion in 2013. The
FMIS2 remains the official accounting system of the AFP. The USMS’ Standardized Tracking and
Reporting System (STARS) data are uploaded into FMIS2. STARS is the USMS Headquarters and
field offices’ financial management system. CATS is an integrated system that provides services to the
asset forfeiture community and serves as a subsidiary system for the financial accounting and reporting
of seized and forfeited property. Enhancements and refinements are being made to some of these
systems that will improve the usefulness of the data supporting the activities of the AFF and SADF.

FY 2010 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People
100% of the AFF’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives: The primary purpose of the AFP is to deter crime by disrupting,
damaging, and dismantling criminal organizations through the use of forfeiture sanction. Depriving
white collar criminals, drug traffickers, racketeers, and other criminal syndicates of their ill-gotten
proceeds and instrumentalities of their trade not only achieves important law enforcement objectives
but also provides an effective means of recovering funds for victim restitution.

Among other important benefits of an aggressive and well-managed forfeiture program is the
application of surplus revenues to law enforcement objectives, such as enhancing cooperation among
Federal, state, and local law enforcement agencies through the equitable sharing of Federal forfeiture
proceeds. Pursuant to 21 U.S.C. § Sec. 881(e)(1) and 19 U.S.C. § Sec. 1616a, as made applicable by
21 U.S.C. § Sec. 881(d) and other statutes, the Attorney General has the authority to equitably transfer
forfeited property and cash to state and local agencies that directly participate in the law enforcement
effort leading to the seizure and forfeiture of property. All property and cash transferred to state and
local agencies and any income generated by this property and cash is to be used for law enforcement
purposes. As a result, state and local law enforcement programs and capabilities benefit significantly


                                                - 10 -
from their cooperative efforts with Federal law enforcement agencies. Among the uses of equitable
shares, priority is given to supporting community policing activities, training, and law enforcement
operations calculated to result in further seizures and forfeitures.

Performance Measures:

There are no applicable AFP performance measures. No performance measures are indicated because
the Fund’s program operations are performed by its participants. The Fund is considered to be an
enabling/administrative activity where resources are spread across agencies in accordance with full
program costing guidance.

Discussion of FY 2010 Results:

Total Net Financing Sources realized by the Fund were $1,545.9 million for the fiscal year ended
September 30, 2010. This is the fifth year since inception of the Fund that it has exceeded $1 billion in
deposits. If we remove the effect of the nine major large cases producing $630.3 million, the deposits
still exceeded $900 million in FY 2010. These revenues must cover program operation expenses,
which include all costs incurred in support of the AFP. The FY 2010 percentage of program operation
expenses to revenues was 32 percent, while in FY 2009 it was 27 percent. After program operation
expenses (as presented in Note 15) are deducted from revenues and financing sources (As presented in
table 2), the remainder represents the results of the year’s operations ($1,553.3 million – $497.3
million = $1,056.0 million in FY 2010 and $1,419.6 million - $385.5 million = $1,034.1 million in
FY 2009). This net income is distributed in various ways. It is paid out for equitable sharing; state
and local overtime; contracts to identify assets; investigative costs leading to seizures; and
investigative expenses after the annual appropriation of funds.

The AFF began implementation of UFMS to facilitate effective management of financial and
acquisition resources in support of the AFP and DOJ missions, objectives, and strategic goals in
December 2007. It is estimated that in 2013 UFMS will be a component-wide financial management
system that will replace FMIS2.

ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
FMFIA Section 2 – Material Weaknesses

For FY 2010 and FY 2009, the independent auditors reported no material weaknesses. Management’s
self assessment of the AFF/SADF internal controls over financial reporting, conducted in FY 2010 and
FY 2009, as required by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and OMB
Circular No. A-123, Management’s Responsibility for Internal Control, identified that internal controls
over seized and forfeited property management need to be strengthened. The AFMS is working
diligently with the participating agencies to ensure that procedures are documented and validated and
that there are sufficient internal controls over seized and forfeited property.

Based on the results of the assessment for the year ended September 30, 2010, the JMD management
did not identify any Section 2 material weaknesses to report that impact the AFP. The FY 2009
AFF/SADF FMFIA report revealed deficiencies in the seized and forfeited property controls. AFP
management took steps to further strengthen forfeiture program controls during FY 2010.




                                               - 11 -
Internal Control Program

The Attorney General will provide the overall assurance statement on internal controls for the
Department. Component responsibilities will be determined by the Department’s Senior Assessment
Team.

AFMS is responsible for maintaining internal accounting and administrative controls that are adequate
to ensure that: (1) transactions are executed in accordance with applicable budgetary and financial
laws and other requirements, consistent with the purposes authorized, and are recorded in accordance
with Federal accounting standards; (2) assets are properly safeguarded to deter fraud, waste, and abuse;
and (3) management information is adequately supported. AFMS, along with other Fund participants
who use FMIS2 and UFMS, monitor their financial transactions on an on-going basis. AFMS also
requires participants who enter Fund transactions into their own financial system to provide reports of
their financial transactions at least quarterly to update the AFF obligation status.

FMFIA Section 4 – Material Nonconformances

For FY 2010 and FY 2009, the Fund reported no material nonconformances of its financial-mixed IT
system CATS. See FMFIA Section 2 – Material Weaknesses for discussion of management’s self-
assessment relative to potential program financial systems and processes deficiencies.

For FY 2010, the Offices, Boards and Divisions (OBD) management participated in the Departmental
assessment of internal controls over financial reporting required by Appendix A of OMB Circular No.
A-123. Results of the testing of the controls over financial reporting in the OBD’s will be
consolidated with other Departmental components and reported in the overall Departmental assurance
statement. In FY 2009 and FY 2010 DOJ provided qualified assurance that management controls and
financial systems met the objectives of Section 4 of FMFIA. The Fund relies upon the Department’s
JMD/FMIS2 and UFMS managers for Section 4 compliance on the Department’s financial system of
record.

Legal Compliance

For FY 2010 and FY 2009, the AFF/SADF was in compliance with the requirements and
responsibilities defined in applicable laws and administrative requirements, including FMFIA, the
Federal Financial Management Improvement Act of 1996 (FFMIA), and relevant OMB Circulars.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Financing sources in FY 2010 totaled $1,545.9 million, which are $133 million more than the $1,412.9
million reported in FY 2009. It is difficult to project future levels of financing since they are
dependent upon many factors, including the development of new cases, uneven flow of cases through
the forfeiture process, level of appropriations that Federal law enforcement agencies receive, level of
personnel and monetary resources dedicated to the forfeiture program, international cooperation in
forfeiture and repatriation matters, Federal court decisions, and evolving forfeiture law.

In 2008, the DOJ began to replace the core financial management systems with one core commercial
off-the-shelf financial management system certified by the Financial Systems Integration Office. The
first pilot implementation of the UFMS occurred with AFMS. In 2011, the USMS Asset Forfeiture
Division will begin implementation of UFMS. Also in FY 2011, the AFMS will begin implementing


                                               - 12 -
the second and final phase of UFMS implementation. The AFMS and USMS AFD implementations
of UFMS are scheduled for completion in 2013.

LIMITATIONS OF THE FINANCIAL STATEMENTS
The financial statements have been prepared to report the financial position and results of operations of
the AFF/SADF, pursuant to the requirements of 31 U.S.C. § 3515(b).

While the statements have been prepared from the books and records of the AFF/SADF in accordance
with U.S. generally accepted accounting principles for Federal entities and the formats prescribed by
OMB, the statements are in addition to the financial reports used to monitor and control budgetary
resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                               - 13 -
This page intentionally left blank. 





           - 14 -
Independent Auditors' Reports 





            - 15 -
This page intentionally left blank. 





           - 16 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice


Director
Asset Forfeiture Management Staff
U.S. Department of Justice


We have audited the accompanying balance sheets of the U.S. Department of Justice Assets Forfeiture
Fund (AFF) and Seized Asset Deposit Fund (SADF) as of September 30, 2010 and 2009, and the related
consolidated statements of net cost and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of the AFF/SADF’s management. Our
responsibility is to express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the AFF/SADF’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Assets Forfeiture Fund and Seized Asset
Deposit Fund as of September 30, 2010 and 2009, and its net costs, changes in net position, and budgetary
resources for the years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 21 to the consolidated financial statements, the AFF/SADF changed its method of
accounting for temporary rescissions of budgetary authority in fiscal year 2010.

The information in the Management’s Discussion and Analysis section is not a required part of the
consolidated financial statements, but is supplementary information required by U.S. generally accepted
accounting principles. We have applied certain limited procedures, which consisted principally of inquiries



                                                          - 17 -
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Financial Statements
Page 2




of management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5,
2010, on our consideration of the AFF/SADF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 5, 2010




                                              - 18 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice


Director
Asset Forfeiture Management Staff
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Assets Forfeiture Fund
(AFF) and Seized Asset Deposit Fund (SADF) as of September 30, 2010 and 2009, and the related
consolidated statements of net cost and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended, and have
issued our report thereon dated November 5, 2010. As discussed in Note 21 to the consolidated financial
statements, the AFF/SADF changed its method of accounting for temporary rescissions of budgetary
authority in fiscal year 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the AFF/SADF is responsible for establishing and maintaining effective internal
control. In planning and performing our fiscal year 2010 audit, we considered the AFF/SADF’s internal
control over financial reporting by obtaining an understanding of the AFF/SADF’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the consolidated financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the AFF/SADF’s internal control over financial reporting. Accordingly, we do not express
an opinion on the effectiveness of the AFF/SADF’s internal control over financial reporting. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.




                                                           - 19 -
                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified a deficiency in internal
control over financial reporting described in Exhibit I that we consider to be a significant deficiency in
internal control over financial reporting. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

The AFF/SADF’s responses to the finding identified in our audit are presented in Exhibit I. We did not
audit the AFF/SADF’s responses and, accordingly, we express no opinion on them.

Exhibit II presents the status of the prior year’s finding and recommendations.

This report is intended solely for the information and use of the AFF/SADF’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 5, 2010




                                               - 20 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3


                                                                                                EXHIBIT I


                                     SIGNIFICANT DEFICIENCY

This section contains our discussion of the significant deficiency we identified in internal control over
financial reporting.

INTERNAL CONTROLS OVER SEIZED AND FORFEITED PROPERTY MANAGEMENT NEED TO BE
STRENGTHENED


Internal controls over seized and forfeited property need reinforcement

During interim and year-end internal control and substantive test work procedures over seized and forfeited
property transactions recorded in the Consolidated Asset Tracking System (CATS), we noted the following
exceptions:

    •	 Seventeen out of 351 non-cash forfeited property sample items were either misclassified or
       improperly valued.
    •	 Two cash sample items out of 695 seized property sample items were either misclassified or
       improperly valued.
    •	 Thirteen non-cash sample items out of 695 seized property sample items were either misclassified
       or improperly valued.
    •	 Fifteen non-cash sample items out of 695 seized property sample items were overvalued as a result
       of FIRE assets having been improperly included in the seized asset footnote item count and dollar
       value disclosures. (FIRE assets are assets that have been Frozen, Indicted, Restrained, or
       Encumbered as part of a federal investigation and are entered into CATS upon receipt of an
       indictment or temporary restraining order but have not yet been seized by the investigative
       agency.)

These errors occurred because field personnel did not (1) make appropriate entries based on available
supporting documentation, (2) obtain a property appraisal in a timely manner after transfer of custody was
completed following the forfeiture of real property, and (3) designate FIRE assets as such upon their entry
into CATS. Inaccurate designation of the status of seized and forfeited property, as well as inaccurate
recording of related amounts, misstates the applicable line items in the financial statements and/or notes to
the financial statements.

The Federal Accounting Standards Advisory Board (FASAB)’s Statement of Federal Financial Accounting
Standards (SFFAS) No. 3, Accounting for Inventory and Related Property, requires that seized and
forfeited property be separately accounted for in the financial statements at each financial reporting date.
Seized monetary instruments are to be recognized as assets upon seizure with an offsetting liability to
recognize the potential for remission to the owners. The market value of seized property other than
monetary instruments shall be disclosed in the footnotes and accounted for in an agency’s property
management records until the property is forfeited, returned, or otherwise liquidated. Forfeited property is
to be recorded as an asset with an offsetting deferred revenue established when a forfeiture judgment is
obtained.



                                               - 21 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 4


                                                                                              EXHIBIT I


Office of Management and Budget (OMB) Circular No. A-123, Management’s Responsibility for Internal
Control, states that “Monitoring the effectiveness of internal control should occur in the normal course of
business. In addition, periodic reviews, reconciliations or comparisons of data should be included as part
of the regular assigned duties of personnel. Periodic assessments should be integrated as part of
management’s continuous monitoring of internal control, which should be ingrained in the agency’s
operations. If an effective continuous monitoring program is in place, it can level the resources needed to
maintain effective internal controls throughout the year.”

The above errors had the following known and likely effect on the financial statements:

As of June 30, 2010
    •	 Seized property (cash and monetary instruments): Known overstatement of $500 thousand; likely
        overstatement of $2.3 million.
    •	 Seized property (non-cash): Known overstatement of $5.7 million; likely overstatement of
        $9.9 million.

As of August 31, 2010
    •	 Forfeited property: Known overstatement of $6.8 million; likely overstatement of $6.8 million.
    •	 Seized property (non-cash): Known overstatement of $1.2 million; likely overstatement of
       $7.9 million.

As of September 30, 2010
    •	 Seized property (non-cash): Known overstatement of $1.1 million; likely overstatement of $5.9
        million.

We recommend the Asset Forfeiture Management Staff (AFMS):

1.	 Enforce procedures among participating agencies to ensure that data in the property and financial
    management systems are updated in a timely manner as changes in status and valuations occur.
    (Repeat)

Management Response:

Management concurs with the findings and recommendation. AFMS has already expanded the Data
Quality Team (DQT) to include reviews in Fiscal Year 2011 of participating agencies’ Headquarters and
field offices not previously reviewed. In addition, AFMS will develop and issue standard Asset Forfeiture
Program Policy Statements in conjunction with our participating agencies to ensure that there is a common
understanding among all of the AFP participants.




                                              - 22 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 5


                                                                                               EXHIBIT I


2.	 Reinforce among participating agencies the requirement to obtain market value appraisals in a timely
    manner after transfer of custody is completed. (New)

Management Response:

Management concurs with the findings and recommendation. AFMS has already expanded the DQT to
include reviews in Fiscal Year 2011 of participating agencies’ Headquarters and field offices not
previously reviewed. In addition, AFMS will develop standard Asset Forfeiture Program Policy
Statements in conjunction with our participating agencies to ensure that there is a common understanding
among all of the AFP participants.

3.	 Reinforce among participating agencies the requirement to “flag” or otherwise denote FIRE assets
    upon their entry into CATS. Flagging FIRE assets will prevent them from being included in the seized
    asset footnote disclosures. As a detective control procedure, AFMS should consider performing
    periodic reviews and analyses of CATS data to identify potential FIRE assets that were not designated
    as such at the time they were entered into CATS. (New)

Management Response:

Management concurs with the findings and recommendation. AFMS has already expanded the DQT to
include reviews in Fiscal Year 2011 of participating agencies’ Headquarters and field offices not
previously reviewed. In addition, AFMS will develop standard Asset Forfeiture Program Policy
Statements in conjunction with our participating agencies to ensure that there is a common understanding
among all of the AFP participants.


Internal controls over deletion of property records from CATS need reinforcement

During our internal control test work over the deletion of property records from CATS, we noted that
documentation to support the authorization of the deletion was not available for 8 out of 80 sample items.
Inadequate internal controls over the deletion of property records in CATS may result in unauthorized
deletions and misstatements to seized and forfeited property-related financial statement disclosures. In the
case at hand, there was no financial statement (footnote) effect because valid explanations were provided;
however, these explanations were not supported by documentation authorizing the deletion of the records
from CATS.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states that “Control activities
include policies, procedures and mechanisms in place to help ensure that agency objectives are met.
Several examples include: proper segregation of duties (separate personnel with authority to authorize a
transaction, process the transaction, and review the transaction); physical controls over assets (limited
access to inventories or equipment); proper authorization; and appropriate documentation and access to that
documentation.”




                                              - 23 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 6


                                                                                            EXHIBIT II


We recommend AFMS:

4.	 Work with Asset Forfeiture Program participants to arrive at a standardized process (including
    acceptable forms of documentation) for authorizing the deletion of CATS property records and
    maintaining proper documentation as evidence of the authorization. (Repeat)

Management Response:

Management concurs with the findings and recommendation. As stated in recommendation 1, AFMS will
develop and issue standard Asset Forfeiture Program Policy Statements in conjunction with our
participating agencies to ensure that there is a common understanding among all of the AFP participants on
matters including but not limited to timely update of asset status and value, conduct and recording of
appraisals and proper recording of FIRE assets.




                                             - 24 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 7


                                                                                              EXHIBIT II


              STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we
have reviewed the status of prior year’s finding and recommendations. The following table provides our
assessment of the progress the AFF/SADF has made in correcting the previously identified significant
deficiency. We also provide the Office of the Inspector General report number where the deficiency was
reported, our recommendation for improvement, and the status of the recommendation as of the end of
fiscal year 2010.

                    Significant
    Report                                           Recommendation                            Status
                    Deficiency
Annual            Internal controls   Recommendation No. 1: Enforce procedures                In Process
Financial         over seized and     among participating agencies to ensure that data    (Fiscal Year 2010
Statement         forfeited           in the property and financial management            Recommendation
Fiscal Year       property            systems are updated in a timely manner as                 No. 1)
2009 Report       management          changes in status and valuations occur.
No. 10-10         need to be
                  strengthened
                                      Recommendation No. 2: Work with the                    Completed
                                      United States Marshals Service (USMS) to
                                      implement procedures to monitor, in the normal
                                      course of business, the effectiveness of internal
                                      control procedures designed to provide for the
                                      accurate and timely recording of changes in the
                                      status and valuation of seized and forfeited
                                      property items. Such procedures should include
                                      the periodic review, reconciliation, or
                                      comparison of data within the timeframes
                                      established for issuing the Assets Forfeiture
                                      Fund (AFF) and Seized Asset Deposit Fund
                                      (SADF) financial statements.

                                      Recommendation No. 3: Work with Asset                   In Process
                                      Forfeiture Program participants to arrive at a      (Fiscal Year 2010
                                      standardized process for authorizing the            Recommendation
                                      deletion of CATS property records and                     No. 4)
                                      maintaining proper documentation as evidence
                                      of the authorization.




                                              - 25 -
This page intentionally left blank. 





           - 26 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice


Director
Asset Forfeiture Management Staff
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Assets Forfeiture Fund
(AFF) and Seized Assets Deposit Fund (SADF) as of September 30, 2010 and 2009, and the related
consolidated statements of net cost and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended, and have
issued our report thereon dated November 5, 2010. As discussed in Note 21 to the consolidated financial
statements, the AFF/SADF changed its method of accounting for temporary rescissions of budgetary
authority in fiscal year 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the AFF/SADF is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to the AFF/SADF. As part of obtaining reasonable assurance about whether
the AFF/SADF’s fiscal year 2010 consolidated financial statements are free of material misstatement, we
performed tests of the AFF/SADF’s compliance with certain provisions of laws, regulations, contracts, and
grant agreements, noncompliance with which could have a direct and material effect on the determination
of the consolidated financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
contracts, and grant agreements applicable to the AFF/SADF. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.




                                                          - 27 -
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Compliance and Other Matters
Page 2




The results of our tests of FFMIA disclosed no instances in which the AFF/SADF’s financial management
systems did not substantially comply with the (1) Federal financial management system requirements,
(2) applicable Federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.

This report is intended solely for the information and use of the AFF/SADF’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 5, 2010




                                             - 28 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 29 -
This page intentionally left blank. 





           - 30 -
                                     U.S. Department of Justice

                       Assets Forfeiture Fund and Seized Asset Deposit Fund

                                    Consolidated Balance Sheets

                                As of September 30, 2010 and 2009


Dollars in Thousands                                                                                 2010            2009

ASSETS (Note 2)
    Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                                    $       180,150        $      39,583
         Investments, Net (Note 5)                                                         3,491,262            3,363,736
         Accounts Receivable, (Note 6)                                                         4,245                4,021
         Other Assets (Note 9)                                                                 2,607                2,757
    Total Intragovernmental                                                                3,678,264            3,410,097
   Cash and Monetary Assets (Note 4)                                                         131,030              160,522
   Forfeited Property, Net (Note 7)                                                          189,122              226,843
   General Property, Plant and Equipment, Net (Note 8)                                         1,417                2,071
   Advances and Prepayments                                                                       12                    3
Total Assets                                                                         $     3,999,845        $   3,799,536

LIABILITIES (Note 10)
    Intragovernmental
         Accounts Payable                                                            $         69,170       $     67,523
    Total Intragovernmental                                                                    69,170             67,523
   Accounts Payable                                                                          629,347              628,028
   Deferred Revenue                                                                          189,122              226,843
   Seized Cash and Monetary Instruments (Note 12)                                          1,424,806            1,451,259
Total Liabilities                                                                    $     2,312,445        $   2,373,653

Contingent Liabilities (Note 13)

NET POSITION
   Cumulative Results of Operations - Earmarked Funds (Note 14)                      $     1,687,400        $   1,425,883
Total Net Position                                                                   $     1,687,400        $   1,425,883
Total Liabilities and Net Position                                                   $     3,999,845        $   3,799,536


                        The accompanying notes are an integral part of these financial statements.




                                                           - 31 -
                                               U.S. Department of Justice

                                 Assets Forfeiture Fund and Seized Asset Deposit Fund

                                          Consolidated Statements of Net Cost

                                For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands

                                   Gross Costs                                            Less: Earned Revenues                  Net Cost
                                                                                                                                    of
                      Intra-            With the                                  Intra-               With the                 Operations
          FY       governmental          Public              Total             governmental             Public         Total     (Note 15)

Goal 2   2010     $      382,798    $     908,944        $ 1,291,742           $           7,324       $       -   $    7,324   $ 1,284,418
         2009     $      291,499    $     710,013        $ 1,001,512           $           6,723       $       -   $    6,723   $ 994,789

Total    2010     $      382,798    $     908,944        $ 1,291,742           $           7,324       $       -   $    7,324   $ 1,284,418
         2009     $      291,499    $     710,013        $ 1,001,512           $           6,723       $       -   $    6,723   $ 994,789

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People


                                   The accompanying notes are an integral part of these financial statements




                                                                - 32 -
                                            U.S. Department of Justice

                              Assets Forfeiture Fund and Seized Asset Deposit Fund

                               Consolidated Statements of Changes in Net Position

                             For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands                                                                      2010             2009

                                                                                      Earmarked        Earmarked
                                                                                        Funds            Funds
Cumulative Results of Operations
  Beginning Balances                                                                 $   1,425,883     $   1,007,809

  Budgetary Financing Sources
    Nonexchange Revenues (Note 18)                                                           3,864            10,684
    Donations and Forfeitures of Cash and Cash Equivalents (Note 19)                     1,502,466         1,376,423

  Other Financing Sources
    Donations and Forfeitures of Property (Note 19)                                         70,864            68,145
    Transfers-In/Out Without Reimbursement (Note 17)                                       (31,259)          (42,389)
  Total Financing Sources                                                                1,545,935         1,412,863

  Net Cost of Operations                                                                 (1,284,418)       (994,789)

  Net Change                                                                               261,517          418,074

  Cumulative Results of Operations                                                   $   1,687,400     $   1,425,883

Net Position                                                                         $   1,687,400     $   1,425,883


                       The accompanying notes are an integral part of these financial statements.




                                                                   - 33 -
                                                  U.S. Department of Justice

                                    Assets Forfeiture Fund and Seized Asset Deposit Fund

                                        Combined Statements of Budgetary Resources

                                   For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands                                                                                                    2010             2009

Budgetary Resources

    Unobligated Balance, Brought Forward, October 1                                                            $   1,195,445    $    595,213
    Recoveries of Prior Year Unpaid Obligations                                                                      67,328           79,515

    Budget Authority
           Appropriations Received                                                                                 1,554,993        1,669,860
           Spending Authority from Offsetting Collections
               Earned
                   Collected                                                                                         10,073             7,215
                   Change in Receivable from Federal Sources                                                            223             2,376
               Change in Unfilled Customer Orders
                   Without Advance from Federal Sources                                                                    -             (681)
    Subtotal Budget Authority                                                                                      1,565,289        1,678,770

    Temporarily not Available Pursuant to Public Law (Note 21)                                                     (387,200)                -

Total Budgetary Resources (Note 16)                                                                            $   2,440,862    $   2,353,498


Status of Budgetary Resources
    Obligations Incurred
           Direct                                                                                              $   1,423,309    $   1,151,330
           Reimbursable                                                                                                7,374            6,723
               Total Obligations Incurred (Note 16)                                                                1,430,683        1,158,053
    Unobligated Balance - Available
           Apportioned                                                                                              669,036          539,014
               Total Unobligated Balance - Available                                                                669,036          539,014

    Unobligated Balances not Available (Note 21)                                                                    341,143          656,431

Total Status of Budgetary Resources                                                                            $   2,440,862    $   2,353,498

Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
           Unpaid Obligations                                                                                  $     919,387    $     909,109
           Less: Uncollected Customer Payments from Federal Sources                                                    4,022            2,327
               Total Unpaid Obligated Balance, Net - Brought Forward, October 1                                      915,365          906,782
    Obligations Incurred, Net                                                                                      1,430,683        1,158,053
    Less: Gross Outlays                                                                                            1,300,063        1,068,260
    Less: Recoveries of Prior Year Unpaid Obligations, Actual                                                         67,328           79,515
    Change in Uncollected Customer Payments from Federal Sources                                                        (223)          (1,695)

    Obligated Balance, Net - End of Period
           Unpaid Obligations                                                                                       982,679          919,387
           Less: Uncollected Customer Payments from Federal Sources                                                   4,245            4,022
               Total Unpaid Obligated Balance, Net - End of Period                                             $    978,434     $    915,365

Net Outlays
    Gross Outlays                                                                                              $   1,300,063    $   1,068,260
    Less: Offsetting Collections                                                                                      10,073            7,215
    Less: Distributed Offsetting Receipts (Note 16)                                                                    3,864           10,684
Total Net Outlays (Note 16)                                                                                    $   1,286,126    $   1,050,361


                                   The accompanying notes are an integral part of these financial statements




                                                                       - 34 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)



Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

The Assets Forfeiture Fund (AFF or Fund) and Seized Asset Deposit Fund (SADF) together
comprise a single financial reporting entity of the Department of Justice (DOJ or Department),
which includes the specified funds, property seized for forfeiture, and the transactions and
program activities of DOJ forfeiture program components and other participating agencies as
described more fully herein.

The primary mission of the DOJ Asset Forfeiture Program (AFP) is to maximize the
effectiveness of forfeiture as a deterrent to crime. This is accomplished by means of depriving
drug traffickers, racketeers, and other criminal syndicates of their ill-gotten proceeds and
instrumentalities of their trade. Components responsible for administration and financial
management of the AFP are charged with lawfully, effectively, and efficiently supporting law
enforcement authorities in the application of specified forfeiture statutes.

The AFF was created by the Comprehensive Crime Control Act of 1984 to be a repository of
proceeds from forfeitures under any law enforced and administered by the DOJ. AFF and SADF
are managed by the Asset Forfeiture Management Staff (AFMS), Justice Management Division
(JMD). The SADF was created administratively by the Department to ensure control over monies
seized by agencies participating in the Department’s AFP.

The AFF and SADF financial reporting entity of the DOJ is not an employer entity under
Statement of Federal Financial Accounting Standards (SFFAS) No. 5, “Accounting for Liabilities
of the Federal Government.” All salaries and employment-related expenses, liabilities, and
imputed financing costs of the DOJ AFP participants, including those pertaining to post-
employment benefits, are reported in the financial statements of the DOJ’s other components.
Salaries and employment-related costs of administrative personnel of the AFMS and United
States Marshals Service (USMS) are allocated to the AFF and SADF financial reporting entity as
program operating costs either through reimbursement agreements or an allocation from DOJ’s
Working Capital Fund. Such charges to the AFF and SADF do not include the costs of any
participant salaries incurred while conducting investigations leading to seizure and forfeiture.

B.     Basis of Presentation

These financial statements have been prepared from the books and records of the AFF/SADF in
accordance with United States generally accepted accounting principles issued by the Federal
Accounting Standards Advisory Board (FASAB) and presentation guidelines in the Office of
Management and Budget (OMB) Circular No. A-136, “Financial Reporting Requirements.”
These financial statements are different from the financial reports prepared pursuant to OMB


                    These notes are an integral part of the financial statements.
                                                    - 35 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


B.     Basis of Presentation (continued)

directives, which are used to monitor and control the use of the AFF/SADF budgetary resources.
To ensure that the AFF/SADF financial statements are meaningful at the entity level and to
enhance reporting consistency within the Department, Other Assets and Other Liabilities as
defined by OMB Circular No. A-136 have been disaggregated on the balance sheet. These
include Forfeited Property, Net; Advances and Prepayments; Deferred Revenue and Seized Cash
and Monetary Instruments.

C.     Basis of Consolidation

The consolidated/combined financial statements include the accounts of the AFF/SADF. All
significant proprietary intra-entity transactions and balances have been eliminated in
consolidation. The Statement of Budgetary Resources is a combined statement for FYs 2010 and
2009, and as such, intra-entity transactions have not been eliminated.

D.     Basis of Accounting

Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
based upon legal considerations and constraints. As a result, certain line items on the proprietary
financial statements may not equal similar line items on the budgetary financial statements.

E.     Non-Entity Assets

Non-entity assets consist of seized property and investments of seized cash that are not available
to fund the operations of the AFP.

F.     Fund Balance with U.S. Treasury and Cash

Generally, the U.S. Treasury processes cash receipts and disbursements for the AFF and SADF.
The funds in the AFF, a special fund receipt account, are entity assets and are used to finance the
operations of the AFP. Seized cash is deposited and accounted for in the SADF, a deposit fund,
until a determination has been made as to its disposition. If title passes to the U.S. Government,
the forfeited cash is then transferred from the SADF to the AFF. The cash balance in the SADF
is a non-entity asset and is not available to finance the AFP activities, but AFP does have
statutory authority for the investment of idle cash.




                    These notes are an integral part of the financial statements.
                                                    - 36 -
                                                 FY 2010 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


G.     Investments

The AFF and SADF are authorized by 28 U.S.C. § 524(c) to invest idle funds in excess of their
immediate needs in U.S. Treasury Securities. Investments are short-term non-marketable market-
based Federal Debt securities issued by the Bureau of Public Debt (BPD) and purchased
exclusively through the BPD’s Division of Federal Investments. Investments are reported on the
Consolidated Balance Sheet at their net value, the face value plus or minus any unamortized
premium or discount. Premiums and discounts are amortized over the life of the Treasury
security. Amortization is based on the straight-line method over the term of the securities. AFF
and SADF intend to hold investments to maturity. Accordingly, no provision is made for
unrealized gains or losses on these securities.

H.     Accounts Receivable

Accounts receivable mainly consist of amounts due from other Federal agencies for goods or
services provided by the AFP. Receivables arising from services provided to other Federal
agencies are considered fully collectible. Therefore, no allowance for uncollectible accounts is
established.

I.     General Property, Plant and Equipment

The General Services Administration (GSA), which charges rent equivalent to the commercial
rates for similar properties, provides a building on a reimbursable basis in which AFMS operates.
The Department does not recognize depreciation on buildings provided by the GSA.

Property, plant and equipment consist of leasehold improvements and enhancements to the
Consolidated Asset Tracking System (CATS), which meet the SFFAS No. 10 “Accounting for
Internal Use Software” definition of “internal use software.” Leasehold improvements are
capitalized when the initial cost of acquiring the asset is $100 or more, and the asset has an
estimated useful life of two or more years. Internal use software is capitalized when
developmental phase costs or enhancement costs are $500 or more and the asset has an estimated
useful life of two or more years. Internal use software purchases with an acquisition cost of less
than $500 are expensed when purchased. Depreciation is calculated using the straight-line
method over the useful lives of the assets.




                     These notes are an integral part of the financial statements.
                                                     - 37 -
                                                 FY 2010 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


J.     Advances and Prepayments

Advances and prepayments include advances to other Federal agencies for any law enforcement,
litigative/prosecutive, and correctional activity, or any other authorized purpose of the DOJ and
travel advances issued to Federal employees for official travel. Travel advances are limited to
meals and incidental expenses expected to be incurred by employees during official travel.
Payments in advance of the receipt of goods and services are recorded as prepaid charges at the
time of payment and are recognized as expenses when the goods and services are received.
Advances and prepayments involving other Federal agencies are classified as Other Assets on the
balance sheet.

K.     Forfeited and Seized Property

Property is seized in consequence of a violation of public law. Seized property can include
monetary instruments, real property, and tangible personal property of others in the actual or
constructive possession of the custodial agency. The value of seized property is its estimated fair
market value at the time it was seized. Most seized property is held by the USMS from the point
of seizure until its disposition. In certain cases, the investigative agency will keep seized
property in its custody if the intention is to place the property into official use after forfeiture or
to use the property as evidence in a court proceeding.

Forfeited property is property for which title has passed to the U.S. Government. This property is
recorded at the estimated fair market value at the time of forfeiture and is not adjusted for any
subsequent increases and decreases in estimated fair market value. The value of the property is
reduced by estimated liens of record. The amount ultimately realized from the forfeiture and
disposition of these assets could differ from the amounts initially reported. The proceeds from
the sale of forfeited property are deposited in the AFF.

L.     Liabilities

Budgetary resources cover all liabilities of the AFF, since the AFF has no other imputed or
unfunded costs. AFF accounts payable represent liabilities to both Federal and non-Federal
entities. Deferred revenue represents the value of forfeited property not yet sold or placed into
official use. Seized cash and monetary instruments represent liabilities for SADF amounts on
deposit pending disposition.




                     These notes are an integral part of the financial statements.
                                                     - 38 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


M.     Contingencies and Commitments

The AFF is party to various administrative proceedings, legal actions and claims. The balance
sheet includes an estimated liability for those legal actions where management and the Chief
Counsel consider adverse decisions “probable” and amounts are reasonably estimable. However,
there are cases where amounts have not been accrued because the amounts of the potential loss
cannot be estimated or the likelihood of an unfavorable outcome is remote.

N.     Interest on Late Payments

Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, Federal agencies must pay interest
on payments for goods or services made to concerns after the due date. The due date is generally
30 days after receipt of a proper invoice or acceptance of the goods or services, whichever is
later.

O.     Intragovernmental Activity

Intragovernmental costs and exchange revenue represent transactions made between two
reporting entities within the Federal government. Costs and earned revenues with the public
represent exchange transactions made between the reporting entity and a non-Federal entity. The
classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
transaction-by-transaction basis. The purpose of this classification is to enable the Federal
government to prepare consolidated financial statements, not to match public and
intragovernmental revenue with costs incurred to produce public and intragovernmental revenue.

P.     Revenues and Other Financing Sources

The funds in the AFF are derived primarily from financing sources and are presented on the
Consolidated Statements of Changes in Net Position as both Budgetary and Other Financing
Sources. Financing sources consist of (1) interest earned on investments (i.e., nonexchange
revenues) and (2) donations and forfeitures, which include forfeited cash, proceeds from the sale
of forfeited property (or conversion of deferred revenue to realized revenue through sale), receipt
of payments in lieu of property forfeiture, recovery of asset management expenses, and financing
sources from judgments.




                    These notes are an integral part of the financial statements.
                                                    - 39 -
                                                 FY 2010 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


P.     Revenues and Other Financing Sources (continued)

These financing sources are recognized when cash is forfeited, forfeited property is sold, or
forfeited property is placed into official use or transferred to another Federal agency. The
financing sources from legal judgments are not recognized until the judgment has been enforced.
Deferred revenue is recorded when the property is forfeited. When the property is sold or
otherwise disposed, the deferred revenue becomes earned and a financing source is recognized.
The AFF recognizes exchange revenue when the United States Attorneys Offices provide
services in judicial forfeiture cases brought by agencies participating in the U.S. Department of
the Treasury (Treasury), Treasury Forfeiture Fund (TFF). The AFF recognizes exchange revenue
on a reimbursement basis and the revenue is presented on the Consolidated Statements of Net
Cost as earned revenue. In accordance with 28 U.S.C. § 524 and AFMS Memorandums of
Understanding, donations and forfeitures available for use by certain Federal agencies are treated
as returns of financing sources when disbursed. The funds in the SADF are held in trust until a
determination is made as to their disposition. These funds include seized cash, proceeds from
preforfeiture sales of seized property, and income from property under seizure. No revenue
recognition is given to cash deposited in the SADF.

Q.     Earmarked Funds

SFFAS No. 27, “Identifying and Reporting Earmarked Funds” defines ‘Earmarked Funds’ as
being financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other
financing sources are required by statute to be used for designated activities, benefits or purposes,
and must be accounted for separately from the Government’s general revenues. The three
required criteria for an earmarked fund are:

 1.	 A statute committing the Federal Government to use specifically identified revenues and
     other financing sources only for designated activities, benefits, or purposes;
 2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources not
     used in the current period for future use to finance the designated activities, benefits, or
     purposes; and
 3.	 A requirement to account for and report on the receipt, use, and retention of the revenues
     and other financing sources that distinguishes the earmarked fund from the Government’s
     general revenues.

The AFF meets the definition of an Earmarked Fund, but the SADF does not meet the definition
of an Earmarked Fund.




                     These notes are an integral part of the financial statements.
                                                     - 40 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


R.     Tax Exempt Status

As an agency of the Federal Government, AFF is exempt from all income taxes imposed by any
governing body whether it be a Federal, state, commonwealth, local, or foreign government.

S.     Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenues and expenses during the reporting period. Actual results could differ from those
estimates.

T.    Subsequent Events

Subsequent events and transactions occurring after September 30, 2010 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial statements
were available to be issued.




                    These notes are an integral part of the financial statements.
                                                    - 41 -
                                                 FY 2010 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 2. Non-Entity Assets

Non-entity assets are assets held by the AFP that are not available for use by the AFP.

As of September 30, 2010 and 2009
                                                                  2010                   2009
Intragovernmental
    Investments, Net (Note 5)                               $     1,293,776          $    1,290,737
With the Public
    Cash and Monetary Assets                                        131,030                 160,522
       Total Non-Entity Assets                                    1,424,806               1,451,259
       Total Entity Assets                                        2,575,039               2,348,277
       Total Assets                                         $     3,999,845          $    3,799,536


Note 3. Fund Balance with U.S. Treasury

As of September 30, 2010 and 2009
                                                                  2010                   2009
 Fund Balances
    Special Funds                                           $       180,150          $      39,583

 Status of Fund Balances
    Unobligated Balance - Available                         $       669,036          $      539,014
    Unobligated Balance - Unavailable                               341,143                 656,431
    Obligated Balance not yet Disbursed                             978,434                 915,365
    Other Funds (With)/Without Budgetary Resources               (1,808,463)             (2,071,227)
        Total Status of Fund Balances                       $       180,150          $       39,583

Other Funds (With)/Without Budgetary Resources primarily represent the AFF investments in
short-term securities less amounts Temporarily not Available Pursuant to Public Law.




                     These notes are an integral part of the financial statements.
                                                     - 42 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 4. Cash and Monetary Assets

Cash consists of seized cash deposited in the SADF. Monetary assets include seized cash in DOJ
custody but not yet deposited in the SADF.

As of September 30, 2010 and 2009
                                                           2010                     2009
Cash
   Seized Cash Deposited                              $       106,154       $        135,002

Monetary Assets
   Seized Monetary Instruments                                 24,876                 25,520
      Total Cash and Monetary Assets                  $       131,030       $        160,522


Note 5. Investments, Net

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with AFF. The cash receipts collected from the public for the AFF, an earmarked
fund, are deposited in the U.S. Treasury, which uses the cash for general Government purposes.
Treasury securities are issued to the AFF as evidence of its receipts. Treasury securities are an
asset to the AFF and a liability to the U.S. Treasury. Because the AFF and the U.S. Treasury are
both parts of the Government, these assets and liabilities offset each other from the standpoint of
the Government as a whole. For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements.




                    These notes are an integral part of the financial statements.
                                                    - 43 -
                                                  FY 2010 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 5. Investments, Net (continued)

Treasury securities provide the AFF with authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When the AFF requires redemption of these
securities to make expenditures, the Government finances those expenditures out of accumulated
cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less
debt, or by curtailing other expenditures. This is the same way that the Government finances all
other expenditures.

                                                          Unamortized
                                          Face              Premium           Investments,        Market
                                          Value            (Discount)             Net             Value
As of September 30, 2010
    Intragovernmental
        Non-Marketable Securities
           Market-Based
                  AFF                 $    2,197,692     $         (206)    $     2,197,486   $    2,236,272
                SADF                       1,294,372               (596)          1,293,776        1,255,044
Total                                 $    3,492,064     $         (802)    $     3,491,262   $    3,491,316



As of September 30, 2009
    Intragovernmental
        Non-Marketable Securities
           Market-Based
                  AFF                 $    2,073,084     $          (85)    $     2,072,999   $    2,072,838
                SADF                       1,291,385               (648)          1,290,737        1,291,171
Total                                 $    3,364,469     $         (733)    $     3,363,736   $    3,364,009




                      These notes are an integral part of the financial statements.
                                                       - 44 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 6. Accounts Receivable

Accounts receivable consist mostly of amounts owed to the AFF from the Treasury Executive
Office for Asset Forfeiture for services provided to the U.S. Treasury. There is no allowance for
uncollectible accounts since accounts receivable from business with Federal entities are
considered fully collectible.

As of September 30, 2010 and 2009
                                                           2010                     2009
Intragovernmental
    Accounts Receivable                               $         4,245       $          4,021

      Total Accounts Receivable                       $         4,245       $          4,021



Note 7. Forfeited and Seized Property

Property seized for any purpose other than forfeiture and held by the seizing agency or a
custodial agency is reported in the financial statements of the seizing or custodial agency. All
property seized for forfeiture, including property with evidentiary value, is reported in the
financial statements of the AFF/SADF. Federal Financial Accounting and Auditing Technical
Release No. 4, “Reporting on Non-Valued Seized and Forfeited Property,” requires disclosure of
property that does not have a legal market in the United States or does not have a value to the
Federal government.

A.     Forfeited Property

The following tables show the analysis of changes in and methods of disposition of forfeited
property, excluding cash, during the fiscal years ended September 30, 2010 and 2009,
respectively.




                    These notes are an integral part of the financial statements.
                                                    - 45 -
                                                                   FY 2010 AFF/SADF Annual Financial Statements
                                                U.S. Department of Justice
                                            Notes to the Financial Statements
                                         (Dollars in Thousands, Except as Noted)


                        Analysis of Changes in Forfeited Property -- Fiscal Year Ended September 30, 2010

                                                                                                                                 Liens            Ending
  Forfeited Property                    Beginning                                                           Ending                and            Balance,
      Category                           Balance       Adjustments (1)   Forfeitures       Disposals        Balance              Claims         Net of Liens


Financial Instruments      Number                 90                -            162              (155)               97                 -                97
                           Value             $19,680                -        $10,043          ($27,504)           $2,219             ($155)           $2,064

Real Property              Number               496                 -            358              (377)              477                 -               477
                           Value           $104,905                 -        $60,739          ($76,626)          $89,018           ($3,468)          $85,550

Personal Property          Number             3,496                 -          5,264            (5,713)         3,047                    -             3,047
                           Value           $105,038                 -        $67,480          ($70,322)      $102,196                ($688)         $101,508

Firearms, Non-Valued       Number             21,940                -           9,457          (12,019)           19,378                    -         19,378

Total                      Number            26,022                 -         15,241           (18,264)        22,999                    -            22,999
                           Value           $229,623                 -       $138,262         ($174,452)      $193,433              ($4,311)         $189,122




                          (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court
                          orders.

                    Methods of Disposition of Forfeited Property -- Fiscal Year Ended September 30, 2010

                                                                                          Official Use/
                                                                                          Transfer for
  Forfeited Property                 Converted Financial Destroyed/Donated/     Sold/      Equitable              Returned
      Category                       Instruments/Property    Transferred    Liquidated (1) Sharing                 Assets        Variances (2)      Total


Financial Instruments      Number                       147                    5               -             -            3                     -        155
                           Value                    $26,814                  $11               -             -         $679                     -    $27,504

Real Property              Number                         -                   28             302             1            46                    -        377
                           Value                          -               $2,264         $62,439          $300       $11,623                    -    $76,626

Personal Property          Number                         4                1,225           3,240         1,037           191                  16       5,713
                           Value                        $49               $4,285         $41,239       $10,856        $4,743              $9,150     $70,322

Firearms, Non-Valued       Number                         -               11,600               -          103              316                  -     12,019

Total                      Number                       151               12,858           3,542         1,141          556                   16      18,264
                           Value                    $26,863               $6,560        $103,678       $11,156      $17,045               $9,150    $174,452

                          (1) The sold/liquidated total dollar value does not agree to Donations and Forfeitures of Property on the Statement of
                          Changes in Net Position and Note 20 because the sold/liquidated amount above represents the assets at their appraised
                          values at forfeiture, and the Donations and Forfeitures of Property on the Statement of Changes in Net Position and
                          Note 20 represents the proceeds realized upon disposition.

                          (2) Variances can result from differences between the value of the property when seized and the value of the property
                          when disposed.




                              These notes are an integral part of the financial statements.
                                                                         - 46 -
                                                                       FY 2010 AFF/SADF Annual Financial Statements
                                                 U.S. Department of Justice
                                             Notes to the Financial Statements
                                          (Dollars in Thousands, Except as Noted)

                          Analysis of Changes in Forfeited Property -- Fiscal Year Ended September 30, 2009
                                                                                                                                         Liens              Ending
    Forfeited Property                    Beginning                                                                 Ending                and              Balance,
        Category                           Balance        Adjustments (1)     Forfeitures       Disposals           Balance              Claims           Net of Liens


Financial Instruments	    Number                    80                   -             143             (133)                  90                  -                 90
                          Value                 $1,847                   -         $49,642         ($31,809)             $19,680                  -            $19,680

Real Property	            Number                  478                    -             451             (433)                 496                 -                496
                          Value              $103,163                    -         $93,195         ($91,453)            $104,905           ($1,488)          $103,417

Personal Property	        Number                2,899                   -           5,725            (5,128)               3,496                 -              3,496
                          Value               $41,532             ($3,252)       $123,799          ($57,041)            $105,038           ($1,292)          $103,746

Firearms, Non-Valued	     Number               22,607                    -          11,377              (12,044)          21,940                  -             21,940

Total                     Number               26,064                   -          17,696           (17,738)              26,022                 -             26,022
                          Value              $146,542             ($3,252)       $266,636         ($180,303)            $229,623           ($2,780)          $226,843




                          (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders




                         Methods of Disposition of Forfeited Property -- Fiscal Year Ended September 30, 2009
                                                                                                  Official Use/
                                                                                                   Transfer for
   Forfeited Property                Converted Financial        Destroyed/Donated/     Sold/        Equitable             Returned
       Category                       Instruments/Property          Transferred    Liquidated (1)    Sharing               Assets        Variances (2)        Total

Financial Instruments	   Number                          126                       4               2                -                1               -            133
                         Value                       $31,524                    $152             $92                -              $55            ($14)       $31,809

Real Property	           Number                             1                     36             315                -            81                   -           433
                         Value                           $163                 $2,416         $67,619                -       $21,255                   -       $91,453

Personal Property	       Number                             1                    756           3,122            1,035            214                  -         5,128
                         Value                             $4                 $4,464         $37,172          $11,880         $3,521                  -       $57,041

Firearms, Non-Valued	    Number                             -                 11,225                -              10           809                   -        12,044

Total                    Number                          128                  12,021           3,439            1,045         1,105                  -         17,738
                         Value                       $31,691                  $7,032        $104,883          $11,880       $24,831               ($14)      $180,303

                         (1) The sold/liquidated total dollar value does not agree to Donations and Forfeitures of Property on the Statement of Changes in Net
                         Position and Note 20 because the sold/liquidated amount above represents the assets at their appraised values at forfeiture, and the
                         Donations and Forfeitures of Property on the Statement of Changes in Net Position and Note 20 represents the proceeds realized upon
                         disposition

                         (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed




                              These notes are an integral part of the financial statements.
                                                                             - 47 -
                                                                   FY 2010 AFF/SADF Annual Financial Statements
                                               U.S. Department of Justice
                                           Notes to the Financial Statements
                                        (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

B.        Seized Property

The following tables show the analysis of changes in and methods of disposition of property
seized for forfeiture during the fiscal years ended September 30, 2010 and 2009, respectively. In
the following tables, Seized Cash and Monetary Instruments includes seized cash in transit as
well as pre-forfeiture deposits into the SADF of monetary instruments and depository account
balances, proceeds from pre-forfeiture sales, and cash received in lieu of seized property.
Financial Instruments include negotiable instruments and restricted depository accounts.

                         Analysis of Changes in Seized Property -- Fiscal Year Ended September 30, 2010

                                                                                                                          Liens           Ending
     Seized Property                   Beginning                                                          Ending           and           Balance
        Category                        Balance      Adjustments (1)     Seizures       Disposals         Balance         Claims        Net of Liens

Seized Cash and           Number            10,053                 -         12,766          (11,735)         11,084               -            11,084
Monetary Instruments      Value         $1,451,259                 -     $1,588,064      ($1,614,517)     $1,424,806        ($91,260)       $1,333,546

 Financial Instruments    Number               365                 -            114              (66)            413               -               413
                          Value           $124,578          ($37,259)       $28,692         ($16,299)        $99,712         ($9,045)          $90,667

 Real Property            Number               210                 -            162             (189)            183               -               183
                          Value            $66,178           ($5,699)       $56,409         ($55,618)        $61,270         ($9,675)          $51,595

 Personal Property        Number             7,429                 -          6,699           (6,809)          7,319               -             7,319
                          Value           $158,880                 -        $88,032         ($85,360)       $161,552        ($11,544)         $150,008

 Firearms, Non-Valued     Number            39,569                 -          9,459          (14,747)         34,281               -            34,281

 Total                    Number            57,626                 -         29,200          (33,546)         53,280               -            53,280
                          Value         $1,800,895          ($42,958)    $1,761,197      ($1,771,794)     $1,747,340       ($121,524)       $1,625,816



                         (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court
                         orders.




                             These notes are an integral part of the financial statements.
                                                                         - 48 -
                                                                         FY 2010 AFF/SADF Annual Financial Statements
                                                  U.S. Department of Justice
                                              Notes to the Financial Statements
                                           (Dollars in Thousands, Except as Noted)


                          Methods of Disposition of Seized Property -- Fiscal Year Ended September 30, 2010



    Seized Property                    Converted Financial Destroyed/Donated/    Sold/                  Returned
       Category                        Instruments/Property    Transferred    Liquidated                 Assets         Forfeited (1)     Variances (2)        Total

Seized Cash and            Number                            53                    56              -           872            10,754                   -          11,735
Monetary Instruments       Value                         $3,318                  $781              -       $97,626        $1,512,792                   -      $1,614,517

Financial Instruments      Number                             -                     5              -             12                  49                -              66
                           Value                              -                   $14              -         $2,234             $14,051                -         $16,299

Real Property              Number                             -                     3             2              22                 162                -             189
                           Value                              -                  $739          $347          $8,458             $46,074                -         $55,618

Personal Property          Number                             -                   103            13          1,552                5,141                -           6,809
                           Value                              -                $2,413          $207        $26,771              $55,969                -         $85,360

Firearms, Non-Valued       Number                             -                   181              -          1,276              13,290                -          14,747
                                                                                    -                                                                  -
Total                      Number                           53                    348            15          3,734            29,396                   -          33,546
                           Value                        $3,318                 $3,947          $554       $135,089        $1,628,886                   -      $1,771,794

                          (1) Forfeitures reported on the Analysis of Change in Forfeited Property may be greater because some assets are not seized
                          until after they are declared forfeited

                          (2) Variances can result from differences between the value of the property when seized and the value of the property when
                          disposed




                              Analysis of Changes in Seized Property -- Fiscal Year Ended September 30, 2009
                                                                                                                                          Liens              Ending
        Seized Property                    Beginning                                                                  Ending               and              Balance,
           Category                         Balance        Adjustments (1)      Seizures         Disposals            Balance             Claims           Net of Liens

Seized Cash and            Number               10,147                    -         11,969           (12,063)             10,053                  -               10,053
Monetary Instruments       Value            $1,228,440                    -     $1,544,033       ($1,321,214)         $1,451,259           ($62,683)          $1,388,576

Financial Instruments      Number                  384                    -             71               (90)               365                   -                  365
                           Value              $102,209                    -        $50,116          ($27,747)          $124,578             ($8,272)            $116,306

Real Property              Number                  199                    -            190              (179)               210                   -                  210
                           Value               $65,663                    -        $61,426          ($60,911)           $66,178             ($9,761)             $56,417

Personal Property          Number                7,365                  3            7,501            (7,440)             7,429                   -                7,429
                           Value              $144,304               $389         $154,686         ($140,499)          $158,880            ($15,238)            $143,642

Firearms, Non-Valued       Number               42,708                    -          14,919            (18,058)          39,569                    -              39,569

Total                      Number               60,803                  3           34,650           (37,830)             57,626                  -               57,626
                           Value            $1,540,616               $389       $1,810,261       ($1,550,371)         $1,800,895           ($95,954)          $1,704,941

                           (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders




                               These notes are an integral part of the financial statements.
                                                                               - 49 -
                                                                      FY 2010 AFF/SADF Annual Financial Statements
                                                 U.S. Department of Justice
                                             Notes to the Financial Statements
                                          (Dollars in Thousands, Except as Noted)



                           Methods of Disposition of Seized Property -- Fiscal Year Ended September 30, 2009

        Seized Property                Converted Financial         Destroyed/Donated/       Sold/       Returned
           Category                     Instruments/Property           Transferred        Liquidated     Assets      Forfeited (1) Variances (2)      Total

Seized Cash and           Number                            21                      58              -          817       11,167                -      12,063
Monetary Instruments      Value                         $5,845                  $6,622              -      $46,606   $1,262,207             ($66) $1,321,214

Financial Instruments	    Number                               -                     4              -           14           72                 -          90
                          Value                                -                   $53              -         $219      $27,475                 -     $27,747

Real Property	            Number                               -                     3              -           24          152                 -         179
                          Value                                -                  $529              -      $18,423      $41,959                 -     $60,911

Personal Property	        Number                               -                    48             3         1,742        5,647                 -       7,440
                          Value                                -               $12,940           $11       $56,304      $71,244                 -    $140,499

Firearms, Non-Valued	     Number                               -                   129              -        1,448        16,481                -       18,058

Total                     Number                            21                     242             3        4,045        33,519                -      37,830
                          Value                         $5,845                 $20,144           $11     $121,552    $1,402,885             ($66) $1,550,371

                          (1) Forfeitures reported on the Analysis of Changes in Forfeited Property may be greater because some assets are not seized until
                          after they are declared forfeited



                          (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed




                              These notes are an integral part of the financial statements.
                                                                            - 50 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

C.     Anticipated Equitable Sharing in Future Periods

The statute governing the use of the AFF (28 U.S.C. §524(c)) permits the payment of equitable
shares of forfeiture proceeds to participating foreign governments and state and local law
enforcement agencies. The statute does not require such sharing and permits the Attorney
General wide discretion in determining those transfers. Actual sharing is difficult to predict
because many factors influence both the amount and time of disbursement of equitable sharing
payments, such as the length of time required to move an asset through the forfeiture process to
disposition, the amount of net proceeds available for sharing, the lapse of time for Departmental
approval of equitable sharing requests for cases with asset values exceeding $1 million, and
appeal of forfeiture judgments. Because of uncertainties surrounding the timing and amount of
any equitable sharing payment, an obligation and expense are recorded only when the actual
disbursement of the equitable sharing payment is imminent. The anticipated equitable sharing
allocation level for FY 2011 is $400 million.


Note 8. General Property, Plant and Equipment, Net

                                     Acquisition      Accumulated         Net Book      Useful
                                       Cost           Depreciation         Value         Life
As of September 30, 2010

Leasehold Improvements               $       470       $       (470)     $          -    5 years
Internal Use Software                      4,577             (3,160)            1,417    7 years
   Total                             $     5,047       $     (3,630)     $      1,417

As of September 30, 2009

Leasehold Improvements               $       470       $       (470)     $          -    5 years
Internal Use Software                      4,577             (2,506)            2,071    7 years
    Total                            $     5,047       $     (2,976)     $      2,071




                    These notes are an integral part of the financial statements.
                                                    - 51 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 9. Other Assets

As of September 30, 2010 and 2009
                                                             2010                     2009
Intragovernmental
    Advances and Prepayments                        $               2,607         $          2,757


Note 10. Liabilities not Covered by Budgetary Resources

Total Liabilities of $2,312,445 and $2,373,653 as of September 30, 2010 and 2009 respectively,
are considered covered by budgetary resources.


Note 11. Leases

The AFF has no capital leases or significant non-cancelable operating leases.

Operating Lease Expense

Lease Type                                                      2010                          2009

    Cancelable Operating Leases                          $                  941       $              940




                    These notes are an integral part of the financial statements.
                                                    - 52 -
                                                 FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 12. Seized Cash and Monetary Instruments

The Seized Cash and Monetary Instruments represent liabilities for seized assets held by the
SADF pending disposition.

As of September 30, 2010 and 2009
                                                                  2010                     2009

   Investments, Net (Note 5)                              $        1,293,776           $       1,290,737
   Seized Cash Deposited (Note 4)                                    106,154                     135,002
   Seized Monetary Instruments (Note 4)                               24,876                      25,520
     Total Seized Cash and Monetary Instruments           $        1,424,806           $       1,451,259


Note 13. Contingencies and Commitments

                                                Accrued                    Estimated Range of Loss
                                                Liabilities              Lower             Upper
      As of September 30, 2010
         Reasonably Possible                $                 -     $          4,000       $         4,000

      As of September 30, 2009
         Reasonably Possible                $                 -     $          4,000       $         4,000




                    These notes are an integral part of the financial statements.
                                                     - 53 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds

The AFF, an earmarked fund, exists to eliminate economic disincentives to operation of an
extensive national asset forfeiture program by providing a stable source of funds to pay costs, not
otherwise funded under agency appropriations, to execute forfeiture functions. This is made
possible by depositing the proceeds of all forfeitures under any laws enforced or administered by
the Department into the Fund, and using those receipts to finance expenses associated with asset
forfeiture functions.

The funds in the AFF are derived primarily from financing sources and are presented on the
Consolidated Statement of Changes in Net Position as both Budgetary and Other Financing
Sources. Financing sources consist of (1) interest earned on Treasury investments (i.e.,
nonexchange revenues) and (2) non-governmental donations and forfeitures, which include
forfeited cash, proceeds from the sale of forfeited property (or conversion of deferred revenue to
realized revenue through sale), receipt of payments in lieu of property forfeiture, recovery of
asset management expenses, and financing sources from judgments.

The AFF recognizes exchange revenue, on a reimbursement basis, when the United States
Attorneys Offices provide services in judicial forfeiture cases brought by agencies participating
in the TFF. This revenue is presented on the Consolidated Statement of Net Cost as earned
revenue. In accordance with 28 U.S.C. § 524 and AFMS Memorandums of Understanding,
donations and forfeitures available for use by certain Federal agencies are treated as returns of
financing sources when disbursed.

All funds deposited to the AFF are considered "public" monies, i.e., funds belonging to the U.S.
Government. The monies deposited into the AFF are available to cover all expenditures in
support of the AFP that are allowable under the Fund statute created by the Comprehensive
Crime Control Act of 1984 (P.L. 98-473, dated October 12, 1984) at 28 U.S.C. § 524(c).




                    These notes are an integral part of the financial statements.
                                                    - 54 -
                                                   FY 2010 AFF/SADF Annual Financial Statements
                                        U.S. Department of Justice
                                    Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds (continued)

As of September 30, 2010 and 2009

                                                            2010                       2009
Balance Sheet
    Assets
        Fund Balance with U.S. Treasury              $         180,150          $          39,583
        Investments, Net                                     2,197,486                  2,072,999
        Other Assets                                           197,403                    235,695
           Total Assets                              $       2,575,039          $       2,348,277

    Liabilities
        Accounts Payable                             $            698,517       $        695,551
        Other Liabilities                                         189,122                226,843
             Total Liabilities                       $            887,639       $        922,394

    Net Position
       Cumulative Results of Operations              $       1,687,400          $       1,425,883
          Total Net Position                         $       1,687,400          $       1,425,883
          Total Liabilities and Net Position         $       2,575,039          $       2,348,277



For the Fiscal Years Ended September 30, 2010 and 2009

                                                            2010                       2009
Statement of Net Cost
        Gross Cost of Operations                     $       1,291,742          $       1,001,512
        Less: Exchange Revenue                                   7,324                      6,723
           Net Cost of Operations                    $       1,284,418          $         994,789

Statements of Net Cost and Changes in Net Position
     Net Position Beginning of Period           $            1,425,883          $       1,007,809

    Budgetary Financing Sources                               1,506,330                 1,387,107
    Other Financing Sources                                      39,605                    25,756
        Total Financing Sources                               1,545,935                 1,412,863
    Net Cost of Operations                                   (1,284,418)                 (994,789)
    Net Change                                                  261,517                   418,074
    Net Position End of Period                       $        1,687,400         $       1,425,883

                       These notes are an integral part of the financial statements.
                                                         - 55 -
                                                     FY 2010 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 15. Net Cost of Operations by Suborganization


                                                                       Less: Earned       Net Cost of
                                                       Gross Cost        Revenue          Operations
For the Fiscal Year Ended September 30, 2010

  Goal 2:    Payments to Third Parties                $      254,228   $           -      $     254,228
             Asset Management Expenses                         9,823               -              9,823
             Special Contract Services                       116,709           7,324            109,385
             ADP Equipment                                     7,489               -              7,489
             Forfeiture Case Prosecution                      54,039               -             54,039
             Forfeiture Training and Printing                 10,309               -             10,309
             Other Program Management                         44,661               -             44,661
             Awards for Information                           12,127               -             12,127
             Purchase of Evidence                              7,776               -              7,776
             Equipping Conveyances                               819               -                819
             Contracts to Identify Assets                     19,778               -             19,778
             Investigative Cost Leading to Seizure            55,110               -             55,110
             Equitable Sharing                               550,288               -            550,288
             Joint Law Enforcement Operations                148,586               -            148,586
                Total                                  $   1,291,742   $       7,324      $   1,284,418

   Goal 2:   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People




                      These notes are an integral part of the financial statements.
                                                          - 56 -
                                                 FY 2010 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 15. 	Net Cost of Operations by Suborganization (continued)


                                                                            Less: Earned     Net Cost of

                                                         Gross Cost           Revenue        Operations

For the Fiscal Year Ended September 30, 2009


   Goal 2:	   Payments to Third Parties                $      197,103      $             -   $   197,103
              Asset Management Expenses                         7,616                    -         7,616
              Special Contract Services                        90,487                6,723        83,764
              ADP Equipment                                     5,807                    -         5,807
              Forfeiture Case Prosecution                      41,898                    -        41,898
              Forfeiture Training and Printing                  7,993                    -         7,993
              Other Program Management                         34,627                    -        34,627
              Awards for Information                            9,403                    -         9,403
              Purchase of Evidence                              6,029                    -         6,029
              Equipping Conveyances                               635                    -           635
              Contracts to Identify Assets                     15,335                    -        15,335
              Investigative Cost Leading to Seizure            42,728                    -        42,728
              Equitable Sharing                               426,649                    -       426,649
              Joint Law Enforcement Operations                115,202                    -       115,202
                 Total	                                 $   1,001,512       $        6,723   $   994,789




                     These notes are an integral part of the financial statements.
                                                      - 57 -
                                                   FY 2010 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 16. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

                                                                                                     Total
                                                    Direct               Reimbursable             Obligations
                                                   Obligations            Obligations              Incurred
For the Fiscal Year Ended September 30, 2010
   Obligations Apportioned Under
      Category A                               $          31,830     $                    -   $           31,830
      Category B                                       1,391,479                      7,374            1,398,853
   Total                                       $       1,423,309     $                7,374   $        1,430,683


For the Fiscal Year Ended September 30, 2009
   Obligations Apportioned Under
      Category A                               $          20,605     $                    -   $           20,605
      Category B                                       1,130,725                      6,723            1,137,448
   Total                                       $       1,151,330     $                6,723   $        1,158,053


Apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular No. A-11, “Preparation, Submission, and
Execution of the Budget.” Category A represents resources apportioned for calendar quarters.
Category B represents resources apportioned for other periods; for activities, projects, and
objectives or for a combination thereof.




                      These notes are an integral part of the financial statements.
                                                       - 58 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 16. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDOs) represent the amount of goods and/or services ordered, which have
not been actually or constructively received. This amount includes any orders which may have
been prepaid or advanced but for which delivery or performance has not yet occurred.

As of September 30, 2010 and 2009
                                                                 2010                 2009

           UDO Obligations Unpaid                            $ 284,162              $ 223,836
           UDO Obligations Prepaid/Advanced                      2,620                  2,761
              Total UDOs                                     $ 286,782              $ 226,597



Permanent Indefinite Appropriations:

28 U.S.C. § 524(c)(1) authorizes the Attorney General to use AFF receipts to pay program
operations expenses, equitable sharing to state and local law enforcement agencies who assist in
forfeiture cases, and lien holders. This permanent indefinite authority is open-ended as to both its
period of availability (amount of time the agency has to spend the funds) and its amount.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated
and that remains available for obligation, unless otherwise restricted. Excess unobligated
balances identified at the end of a fiscal year may be declared a “Super Surplus” balance. Super
Surplus balances may be allocated at the discretion of the Attorney General for “…any Federal
law enforcement, litigative/prosecutive, and correctional activities, or any other authorized
purpose of the DOJ” pursuant to 28 U.S.C. § 524(c)(8)(E).




                    These notes are an integral part of the financial statements.
                                                    - 59 -
                                                         FY 2010 AFF/SADF Annual Financial Statements
                                              U.S. Department of Justice
                                          Notes to the Financial Statements
                                       (Dollars in Thousands, Except as Noted)


Note 16. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. Budget of the United States Government:

The reconciliation as of September 30, 2010 is not presented, because the submission of the
Budget of the United States (Budget) for FY 2012, which presents the execution of the FY 2010
Budget, occurs after publication of these financial statements. The Department of Justice Budget
Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will
be available in early February 2011.


For the Fiscal Year Ended September 30, 2009
   (Dollars in millions)                                                                                  Distributed
                                                             Budgetary              Obligations           Offsetting             Net
                                                             Resources               Incurred              Receipts             Outlays

 Statement of Budgetary Resources (SBR)                  $          2,353       $          1,158      $             11      $        1,050

 Funds not Reported in Budget of the U.S.
 Forfeiture Activity                                                     (60)                     -                     -                  -
 OCEDTF Adjustments                                                       (3)                     6                     -                  -
 Distributed Offsetting Receipts                                           -                      -                     -                 11

 Other                                                                     -                      -                     5                 2

 Budget of the United States Government                  $          2,290       $          1,164      $             16      $        1,063



Funds not reported in the Budget - Forfeiture Activity, primarily represent forfeiture activities
that are unavailable until the authority is granted in the subsequent year. These activities
represent real estate sales and accrued revenue. Other differences represent financial statement
adjustments, timing differences, and other immaterial differences between amounts reported in
the AFF’s SBR and the Budget of the United States.




                             These notes are an integral part of the financial statements.
                                                              - 60 -
                                                   FY 2010 AFF/SADF Annual Financial Statements
                                      U.S. Department of Justice
                                  Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)


Note 17. Super Surplus Transfers

Allocation transfers by the AFF include transfers of Super Surplus allocations and transfers of
forfeited property to participating agencies for official use.

Transfers-out of Super Surplus Allocations. The 28 U.S.C. § 524(c)(8)(E) provides authority
for the Attorney General to use excess end-of-year monies, without fiscal year limitation, in the
AFF for any Federal law enforcement, litigative, prosecutorial, and correctional activities, or any
other authorized purpose of the DOJ. The Attorney General approved the following allocations
during FYs 2010 and 2009 for distribution in subsequent years.

For the Fiscal Years Ended September 30, 2010 and 2009

                                                                             2010             2009
Civil Division                                                         $            338   $         338
Drug Enforcement Administration                                                       -              13
Executive Office for U.S. Attorneys                                                 194              95
National Security Division                                                            -           1,701
Bureau of Prisons                                                                     -          10,000
Office of Justice Programs                                                            -          13,000
Unites States Marshals Service                                                        -             194
Community Oriented Policing Services                                             26,000          25,000
   Total DOJ Allocations                                               $         26,532   $      50,341

2005 Super Surplus                                                     $            532   $       2,341
2007 Super Surplus                                                                    -          10,000
2008 Super Surplus                                                               26,000          38,000
   Total Allocations                                                   $         26,532   $      50,341




                       These notes are an integral part of the financial statements.
                                                       - 61 -
                                                FY 2010 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 17. Super Surplus Transfers (continued)

As of September 30, 2010, $26,474 in prior years’ surpluses were transferred out to participating
agencies, $62 was owed and $2,607 was advanced to these agencies for super surplus allocations
in the current and prior years. As of September 30, 2009, $36,534 was transferred out and $2,757
was advanced.

Transfers-out of Forfeited Property for Official Use. Property was distributed pursuant to the
Attorney General’s authority to share forfeiture revenues with agencies that participated in the
forfeiture that generated the property, and pursuant to the DOJ’s authority to place forfeited
property into official use by the Government. As of September 30, 2010 and 2009, transfers-out
of forfeited property for official use totaled $4,785 and $5,855, respectively.



Note 18. Nonexchange Revenues

Nonexchange revenue consists of income from the investment of the AFF and SADF in U.S.
Treasury securities. The investment accrual revenue represents the amortization of the discount
on marketable bills using the straight-line basis.

For the Fiscal Years Ended September 30, 2010 and 2009

                                                             2010                   2009

Income from AFF investments                           $             2,474       $       6,932
Income from SADF investments                                        2,108               7,086
Amortization of AFF/SADF discount/(premium)                          (718)             (3,334)
   Total Investment Income                            $             3,864       $      10,684




                    These notes are an integral part of the financial statements.
                                                    - 62 -
                                                  FY 2010 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 19. Donations and Forfeitures

Forfeiture income includes forfeited cash, sales of forfeited property, penalties in lieu of
forfeiture, recovery of returned asset management costs, judgment collections, and other
miscellaneous income. For the fiscal years ended September 30, 2010 and 2009, net forfeiture
income attributable to the AFF totaled $1,573,330 and $1,444,568, respectively, after the
following payments and returns to agencies participating in seizures that led to forfeiture.


                                                                        2010              2009

Payments to individuals or organizations for proceeds from        $         6,524     $     14,771
assets forfeited and deposited into the AFF and
subsequently returned to them through a settlement
agreement or by court order.
Return of forfeiture income to the TFF for its participation              159,167           17,291
in seizures that led to forfeiture.

Return to the Federal Deposit Insurance Corporation                        25,142            9,577
(FDIC) or other Federal financial institutions or regulatory
agencies for monies recovered under the Federal
Institutions Reform, Recovery and Enforcement Act.

Return of forfeiture income to other Federal agencies for                   1,481                75
their participation in seizures that led to forfeiture.

Total Return of Forfeiture Income                                 $       192,314     $     41,714




                      These notes are an integral part of the financial statements.
                                                      - 63 -
                                                  FY 2010 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)



Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

For the Fiscal Years Ended September 30, 2010 and 2009:
                                                                                 2010                2009
Resources Used to Finance Activities
    Budgetary Resources Obligated
       Obligations Incurred                                                  $   1,430,683       $   1,158,053
       Less: Spending Authority from Offsetting Collections and
              Recoveries                                                            77,624              88,425
       Obligations Net of Offsetting Collections and Recoveries                  1,353,059           1,069,628
       Less: Offsetting Receipts                                                     3,864              10,684
       Net Obligations                                                           1,349,195           1,058,944

    Other Resources
        Donations and Forfeitures of Property                                       70,864              68,145
        Transfers-In/Out Without Reimbursement                                     (31,259)            (42,389)
        Net Other Resources Used to Finance Activities                              39,605              25,756
Total Resources Used to Finance Activities                                       1,388,800           1,084,700

Resources Used to Finance Items not Part of the Net Cost of
   Operations
    Change in Budgetary Resources Obligated for Goods, Services,
        and Benefits Ordered but not Yet Provided                                     (60,185)         (61,835)
    Budgetary Offsetting Collections and Receipts That do not
        Affect Net Cost of Operations                                                 (67,602)         (57,461)
    Other Resources or Adjustments to Net Obligated Resources
        That do not Affect Net Cost of Operations                                      4,784             5,855
Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                 (123,003)           (113,441)
Total Resources Used to Finance the Net Cost of Operations                       1,265,797            971,259




                      These notes are an integral part of the financial statements.
                                                      - 64 -
                                                 FY 2010 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)

Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period
    Components not Requiring or Generating Resources
        Depreciation and Amortization                                                   654           654
        Other                                                                        17,967        22,876
    Total Components of Net Cost of Operations That Will not Require or              18,621        23,530
        Generate Resources

Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                              18,621        23,530

Net Cost of Operations                                                      $   1,284,418     $   994,789



Note 21. Change in Accounting Principle

For FY 2010, in accordance with guidance provided by the Office of Management and Budget
(OMB), the AFF changed its method of reporting rescissions of budgetary authority by reporting
$387,200 as temporarily not available pursuant to public law in the budgetary resources section
of the SBR. In FY 2009, based on guidance issued by OMB, recissions were reported as
unobligated balances not available in the status of budgetary resources section of the SBR. The
new method of accounting for rescissions was adopted based on guidance received from the
OMB to better align rescissions reported in the SBR with the amounts reported by OMB in the
Budget of the United States.




                     These notes are an integral part of the financial statements.
                                                     - 65 -
This page intentionally left blank. 





           - 66 -
Appendix




- 67 -
This page intentionally left blank. 





           - 68 -
                                                                  APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF). The
AFF/SADF’s response is incorporated in the Independent Auditors’ Report on
Internal Control over Financial Reporting of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number:

1.	   Closed. The status of corrective action related to this
      recommendation will be tracked through Recommendation No. 1 of the
      FY 2009 Annual Financial Statement Audit Report (OIG Report
      No. 10-10).

2.	   Resolved. The AFMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the AFMS reinforces among
      participating agencies the requirement to obtain market value
      appraisals in a timely manner after transfer of custody is completed.

3.	   Resolved. The AFMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the AFMS reinforces among
      participating agencies the requirement to “flag” or otherwise denote
      FIRE assets upon their entry into CATS.

4.	   Closed. The status of corrective action related to this
      recommendation will be tracked through Recommendation No. 3 of the
      FY 2009 Annual Financial Statement Audit Report (OIG Report
      No. 10-10).




                                    - 69 -
